APPENDIX

Appendix Table of Contents
1. Opinion of the Tennessee Court of Criminal Appeals .......................................... 1
2. Order of the Supreme Court of Tennessee ............................................................ 27
3. Recorded Statement of David Miller (Excerpt) .................................................... 29
4. Pre-Trial Testimony of David Miller (Excerpt) .................................................... 33
5. Oral Ruling of Trial Court Judge Steve Dozier ..................................................... 55

1. Opinion of the
Tennessee Court of
Criminal Appeals

Pet. App'x p. 1

IN THE COURT OF CRIMINAL APPEALS OF TENNESSEE
AT NASHVILLE

05/15/2020

October 15, 2019 Session
STATE OF TENNESSEE v. DERRICK DARNELL MOORE and
DEMICHAEL TYRONE MOORE
Appeal from the Criminal Court for Davidson County
No. 2014-B-907
Steve R. Dozier, Judge

No. M2018-01764-CCA-R3-CD

The Defendants, Derrick Darnell Moore and Demichael Tyrone Moore, were convicted
by a Davidson County Criminal Court jury of first degree felony murder and especially
aggravated robbery. See T.C.A. §§ 39-13-202 (2018) (first degree murder); 39-13-403
(2018) (especially aggravated robbery). Defendant Derrick Moore was also convicted of
criminally negligent homicide, which the trial court merged into the felony murder
conviction. See id. § 39-13-212 (2018) (criminally negligent homicide). Defendant
Demichael Moore was also convicted of second degree murder, which the trial court
likewise merged into the felony murder conviction. See id. § 39-13-210 (2018) (second
degree murder). The trial court sentenced Defendant Derrick Moore to concurrent terms
of life imprisonment for felony murder and twenty years for especially aggravated
robbery. The trial court sentenced Defendant Demichael Moore to consecutive terms of
life imprisonment for felony murder and thirty-two years for especially aggravated
robbery. On appeal, the Defendants contend that (1) the evidence is insufficient to
support their convictions, (2) the trial court violated the rules of evidence and their
confrontation rights by admitting as substantive evidence a recording of a conversation in
which the Defendants were implicated in the offenses, and (3) the State engaged in
prosecutorial misconduct during its rebuttal closing argument. We affirm the judgments
of the trial court.
Tenn. R. App. P. 3 Appeal as of Right; Judgments of the Criminal Court Affirmed
ROBERT H. MONTGOMERY, JR., J., delivered the opinion of the court, in which JOHN
EVERETT WILLIAMS, P.J., and ROBERT L. HOLLOWAY, JR., J., joined.
Benjamin K. Raybin (on appeal) and Dwight Scott (at trial), Nashville, Tennessee, for the
appellant, Derrick Darnell Moore.

Pet. App'x p. 2

Patrick T. McNally (on appeal) and Leah Wilson (at trial), Nashville, Tennessee, for the
appellant, Demichael Tyrone Moore.
Herbert H. Slatery III, Attorney General and Reporter; M. Todd Ridley and Ronald L.
Coleman, Assistant Attorneys General; Glenn Funk, District Attorney General; and J.
Wesley King and Kate Melby, Assistant District Attorneys General, for the appellee,
State of Tennessee.
OPINION
The Defendants’ convictions relate to the September 27, 2013 fatal shooting of
Spencer Beasley. At the trial, Henry Howard, the victim’s stepfather, testified that on
September 27, the victim came home to take a shower after having finished work at
Wendy’s restaurant. Mr. Howard recalled that the victim received his paycheck on the
day of the shooting and said that the victim received a cell phone call and left the home.
Mr. Howard did not know to whom the victim spoke. Mr. Howard said that the victim
did not have a car and that he did not hear a car pull into the driveway. On crossexamination, Mr. Howard stated that he did not see the victim with money before the
victim left but that the victim received a paycheck each Friday.
Metro Nashville Police Officer Carlos Urrutia testified that he was the first officer
to arrive at the scene of the shooting at approximately 7:00 p.m. and that the victim had
suffered multiple gunshot wounds to his lower extremities. Officer Urrutia recalled that
the victim was alive at the scene. Officer Urrutia did not see any weapons but saw
cartridge casings, dice, and money.
Maurice Wiley testified that he and the victim, who was known as “Third,” had
been neighbors and had known each other for about four or five years at the time of the
shooting. Mr. Wiley said that, on the day of the shooting, he picked up the victim from
work “and brought him over there to where we was at.” Mr. Wiley identified the victim’s
cell phone number. Mr. Wiley said that he was known by the names of “Sweet” and
“Too Sweet.”
Mr. Wiley testified that, after picking up the victim, Mr. Wiley drove the victim
and Raymond Lenox, who was Mr. Wiley’s cousin, to a dice game. Mr. Wiley said the
three of them shot dice on the sidewalk, not far from Mr. Howard’s home, beginning
around 4:00 p.m. Mr. Wiley recalled that the victim had received his paycheck and had
approximately $200 that day. Mr. Wiley described the dice game, in which one person
rolled two dice, another person bet “against it,” and bystanders placed side bets. Mr.
Wiley said that, during the dice game, he received a cell phone call from David Miller,
who was known as “Pun.” Mr. Wiley stated Mr. Miller reported that a dice game was
about to begin near Mr. Miller’s home, which was located about a couple of minutes’
drive from Mr. Wiley’s home, and that Mr. Wiley, Mr. Lenox, and the victim went to the
dice game near Mr. Miller’s home.
-2-

Pet. App'x p. 3

Mr. Wiley testified that Defendant Demichael Moore, along with a few additional
people whom Mr. Wiley could not identify, were present for the dice game near Mr.
Miller’s home. Mr. Wiley thought two of the men might have been “Traco” and “Won.”
Mr. Wiley thought seven men were at the dice game, which was played along a stone
wall in front of a home. He said that he and the victim each gambled and that Defendant
Demichael Moore, whom Mr. Wiley knew as “Face,” controlled the dice game. Mr.
Wiley said that Defendant Demichael Moore collected a portion of the money because he
controlled the game.
Mr. Wiley testified that Defendant Demichael Moore might have worn a “a button
up collared shirt” at the time of the dice game. Mr. Wiley said that he stayed at the game
for approximately thirty minutes and left after he received a cell phone call about his
aunt. Mr. Wiley said that, when he left the dice game, there were no problems between
any of the men and that the victim and Defendant Demichael Moore stayed behind. Mr.
Wiley said that he returned to the dice game ten to fifteen minutes later because he
received a call from Mr. Lenox, who reported that “they f----- up Third” and that “Face
just shot [the victim].” Mr. Wiley said that when he returned to the dice game a couple of
minutes after the call, nobody was at the scene but the victim. He said that the victim had
been shot, that blood came from the victim’s leg, and that the victim’s eyes began to roll
back into the victim’s head. Mr. Wiley said he had not seen Defendant Derrick Moore at
the scene.
Mr. Wiley testified that he called 9-1-1, that the police arrived about five minutes
later, and that an ambulance took the victim to a hospital. Mr. Wiley said that although
he was handicapped and did not have the use of his legs, his car had been “specially
formatted” to allow him to drive despite his physical disability. Mr. Wiley stated that the
victim did not have a firearm on the day of the shooting.
Mr. Wiley testified that, about ten minutes before he left the dice game, he saw
Defendant Demichael Moore talking on a cell phone to Defendant Derrick Moore. Mr.
Wiley said that he had known the Defendants, who were brothers, since childhood. Mr.
Wiley said that although he and Defendant Demichael Moore were not friends, they had
“no issues.” Mr. Wiley said that Defendant Derrick Moore, who was also known as “Fat
Derrick” and “Fat D,” was “my partner” and that they had a good relationship. Mr.
Wiley said that although the victim and Defendant Derrick Moore knew each other, they
were not friends. Mr. Wiley said that, at an unspecified time before the day of the
shooting, Defendant Derrick Moore stated he “had an issue” with the victim about a
handgun that had been stolen from Defendant Derrick Moore. Mr. Wiley stated that
Defendant Demichael Moore lived a couple of streets away from where the dice game
occurred and that Defendant Derrick Moore lived in another portion of town.

-3-

Pet. App'x p. 4

Mr. Wiley identified photographs of the crime scene, which were received as an
exhibit and which included the victim’s Wendy’s restaurant visor, the location of the dice
game, what was described as a blood stain where the victim lay on the ground, and Mr.
Wiley’s car.
On cross-examination, Mr. Wiley agreed that Defendant Derrick Moore was not at
the dice game when Mr. Wiley was there. Mr. Wiley denied telling the police that Mr.
Lenox was at the scene when Mr. Wiley returned to find the victim lying on the street.
Mr. Wiley said that Defendant Derrick Moore “had issues” with the victim because
Defendant Derrick Moore believed the victim had stolen a handgun from Defendant
Derrick Moore’s friend but that Defendant Derrick Moore did not appear to be “very
mad” about it. Mr. Wiley agreed that Defendant Derrick Moore never said he was “out to
get” the victim.
Mr. Wiley testified that, before he left the dice game, Defendant Demichael Moore
stated that Defendant Derrick Moore was “on his way” to the dice game. Mr. Wiley said
that, to his knowledge, nobody had been drinking alcohol or had been under the influence
of controlled substances at the dice game. He said that he and the victim shot dice daily.
Mr. Wiley agreed that a dice game could “turn bad quickly” because money was at stake
but that there were no problems when he left. Mr. Wiley said that he did not see
Defendant Demichael Moore with a handgun at the dice game. Mr. Wiley agreed that
Defendant Demichael Moore could have left and returned to the dice game during the
time Mr. Wiley was gone from the game. Mr. Wiley doubted, though, that Defendant
Demichael Moore left the dice game during this time.
Metro Nashville Police Detective William Mathis testified that he first responded
to the scene at approximately 7:30 p.m., before going to the hospital to collect the
victim’s belongings. Detective Mathis said that a cell phone and money were not among
the victim’s belongings. On cross-examination, Detective Mathis stated a five-dollar bill
and two cigar butts were found at the scene.
David Miller testified that his nickname was “Pun” and that he was confined at a
Fayette County jail at the time of the trial. He did not recall the victim’s name and the
shooting at issue in this case, although he grew up in the area where the shooting
occurred. He said that he had suffered a brain injury and “remember[ed] none of that
stuff.” He did not recall Defendant Demichael Moore’s name but recalled a man known
as “Face” and “D-Face.” Mr. Miller initially could not identify the person he knew as
Face in the courtroom but later identified Defendant Demichael Moore. Mr. Miller said
that he went to school with Defendant Derrick Moore, whom Mr. Miller identified as
“Fat-D” and Face’s brother.
Mr. Miller testified that he recalled “nothing about no shooting on that situation”
and did not recall anything relative to September 2013. When asked what he recalled
-4-

Pet. App'x p. 5

before September 2013, he said that he recalled living with his father in 2014. He said
that he could not recall anything before 2014 and that he had used a lot of drugs. He said
that his brain injury occurred during a 2014 fight.
Mr. Miller testified that he was not concerned about being labeled a “snitch.” He
denied feigning memory loss about the 2013 shooting and stated that he genuinely did not
recall it. He did not recall speaking with detectives about the shooting on September 28,
2013, riding in a car with the detectives in the neighborhood where the shooting occurred,
and telling the detectives what he saw.
On cross-examination, Mr. Miller testified relative to his previous drug use that he
had used cocaine, marijuana, and heroin “as much as [he] could all day every day.” He
said that if a recording showed him speaking to the police about the victim’s shooting, he
was “[p]robably . . . trying to get some money or something” to purchase drugs. He
agreed he would have been using cocaine and heroin at the time of the interview and that
he would have been intoxicated. On redirect examination, Mr. Miller denied using drugs
at the time of the trial.
Metro Nashville Police Crime Scene Officer Warren Fleak testified that he
responded to the scene around 10:00 p.m. He identified photographs of the scene, which
included two green dice, two partially smoked cigars, a black cell phone charger, a
Wendy’s restaurant apron and visor, a .45-caliber cartridge casing beside the visor, a .45caliber cartridge casing above the visor on top of a concrete wall, nine additional .45caliber cartridge casings throughout the scene, a bullet fragment near the visor, a fivedollar bill, and a bullet fragment lying in what he described as blood. On crossexamination, Officer Fleak stated that the cartridge casings and bullet fragments did not
establish the identity of the shooter or where the shooter stood at the time of the shooting.
Tennessee Bureau of Investigation (TBI) Agent Teri Arney, an expert in the fields
of firearms and tool mark analyses, testified that she analyzed four bullets and two bullet
fragments, along with twelve cartridge casings found at the scene. Agent Arney stated
that all of the cartridge casings were Remington brand .45-caliber and had been fired
from the same handgun. She said that the four bullets were .45-caliber and were typical
of Remington cartridges but that she was unable to conclude that the bullets were fired
from a particular handgun. He said that the rifling was of a poor quality, which prevented
a conclusion that the bullets were fired from the same handgun. She said, though, it was
possible the twelve cartridge casings were fired from the same handgun as the four
bullets. She said that the bullet fragments had the same class characteristics as the four
bullets and that the copper jackets of the fragments were consistent with Remington.
Agent Arney concluded that the .45-caliber cartridge casings found at the scene
had been fired from the same .45-caliber handgun and had characteristics of having been
fired from a semi-automatic Glock firearm. She likewise concluded that the bullets and
-5-

Pet. App'x p. 6

bullet fragments were consistent with having been fired from a .45-caliber Glock
handgun. On cross-examination, Agent Arney testified that the handgun used in this case
was not provided to her.
TBI Agent Greg Fort, an expert in the field of DNA analysis, determined that
Defendant Demichael Moore’s DNA was on two cigar butts found at the scene. Agent
Fort said that a mixture of two DNA profiles was found on one of the butts and that the
minor DNA contributor was Defendant Demichael Moore. On cross-examination, Agent
Fort stated that an unidentified person’s DNA was also found on the butt. He agreed that
he could not determine when Defendant Demichael Moore’s DNA was transferred to the
butt.
Metro Nashville Police Detective Adam Weeks testified that he interviewed Mr.
Miller, who was also known by the nicknames “Pun,” “C-Pun,” and “Little David,” the
day after the victim’s death. Detective Weeks said that he spoke to Mr. Miller at the
scene initially and later inside his police car. Detective Weeks said that Mr. Miller
initially denied having any knowledge about the shooting but that Mr. Miller requested a
meeting when the detective recanvassed the area.
Detective Weeks testified that he and Detective Curtis Haifley picked up Mr.
Miller where the shooting occurred, that Mr. Miller had a nervous and concerned
demeanor, and that Mr. Miller appeared apprehensive about speaking to the police.
Detective Weeks said that Mr. Miller did not appear to have been under the influence of
any substances. Their audio-recorded conversation was played for the jury.
In the recording, Mr. Miller stated that he was going to show the detectives the
home of the person “who done it” in exchange for payment. A detective stated they
could discuss “that,” but Crime Stoppers paid tipsters. Mr. Miller expressed fear for his
life for talking to the detectives and said that he needed to be paid immediately for the
information he wanted to provide them. They discussed the anonymous nature of Crime
Stoppers and the maximum amount of money Crime Stoppers would pay for information,
and Mr. Miller asked for the telephone number.
Mr. Miller directed the detective to drive to a home near the scene of the shooting.
He said that the shooter’s name was Demichael and was known as “D-Face.” Mr. Miller
did not know Demichael’s last name but identified Defendant Derrick Moore as
Demichael’s brother. Mr. Miller directed the detective to drive to a home that Mr. Miller
said was owned by Defendant Demichael Moore’s mother and said Defendant Demichael
Moore lived at the home. When the detective asked what occurred before the shooting,
Mr. Miller said that the victim had stolen a gun from “a guy” and that that the guy
“finally caught up with” the victim.

-6-

Pet. App'x p. 7

Mr. Miller stated that he witnessed the shooting and that, “I was out there, man. I
didn’t want to say I was out there, yes I was out there.” Mr. Miller said that Defendant
Demichael Moore aimed the handgun at the victim. When the detective asked if
Defendant Demichael Moore had tried to kill the victim, Mr. Miller stated, “But he ran
off with dude pistol that’s why he did it.” The detective asked who was present during
the shooting, and Mr. Miller said that he did not know but that many people were
shooting dice. When the detective asked if Mr. Wiley had been at the scene, Mr. Miller
said that Mr. Wiley dropped off the victim but that Mr. Wiley was not at the scene when
the shooting occurred. Mr. Miller said that “Raymond” was shooting dice when the
gunshots began but that Dejuan Teasley was not at the scene.
Mr. Miller said that Defendant Demichael Moore only fired the handgun at the
victim. Mr. Miller said that Defendant Demichael Moore “took up for Derrick, his
brother. Because [the victim] took [h]is brother’s gun. [Derrick] pulled a pistol out on
him last night when they was shooting dice.” Mr. Miller said that the victim “almost took
Derrick’s pistol and D-Face ran up and got the pistol and put it on [the victim].” When
the detective asked why Defendant Derrick Moore pointed a handgun at the victim, Mr.
Miller said that a couple of months before the shooting, the victim “took” Defendant
Derrick Moore’s pistol “and ran off.” Mr. Miller said that Defendant Derrick Moore
finally “caught” the victim. Mr. Miller said that Defendant Demichael Moore “just
saved” his brother. Mr. Miller said that Defendant Derrick Moore “upped on” the victim,
that the men struggled for the handgun, and that Defendant Demichael Moore intervened
and shot the victim. Mr. Miller said that although Defendant Demichael Moore shot the
victim, the handgun belonged to Defendant Derrick Moore.
Detective Weeks testified that, during the interview, he drove past the home Mr.
Miller identified as Defendant Demichael Moore’s home, which was about two blocks
from the scene. Detective Weeks said that Defendant Derrick Moore lived near a college
campus. Detective Weeks said the victim’s cell phone had not been found. Detective
Weeks said that, in late September, he and Detective Paul Harris interviewed Defendant
Derrick Moore. Detective Weeks said that Detective Harris and Defendant Derrick
Moore had a cordial relationship before this case. The audio recording of the interview
was played for the jury.
In the recording, Defendant Derrick Moore stated that in January or February, the
victim and other unidentified people had robbed Defendant Derrick Moore but that he did
not “do anything about it.” Defendant Derrick Moore denied that he had been looking for
the victim and said that he had spoken to the victim, along with a man known as “GetGet,” two weeks before the interview. Defendant Derrick Moore said that he later spoke
to Get-Get, who reported that the victim thought Defendant Derrick Moore was going to
shoot the victim. Defendant Derrick Moore said that the robbery involved thirty or forty
dollars and that if he “wanted to get” the victim, he “would’ve . . . got him or had to call,
whatever . . . that’s petty s--- you live and you learn.” He said that the victim’s “day [had
-7-

Pet. App'x p. 8

been] coming” because “you can only rob, steal, break in houses for so long.” Defendant
Derrick Moore said he told Get-Get that the victim would go to jail eventually.
Defendant Derrick Moore stated that, on the day of the shooting, he drove to east
Nashville after work to visit his parents. He said he checked the mail, spoke to his father,
spoke to his brother, Defendant Demichael Moore, and left the house. Defendant Derrick
Moore said that he saw the victim, along with fifteen to twenty additional people,
shooting dice on the street corner as he left his parents’ neighborhood. Defendant
Derrick Moore said that he “jumped out of the car” when he saw the victim, retrieved a
hammer from the car, hid it in his shirt sleeve, and approached the victim. Defendant
Derrick Moore said he had the hammer because he did not know if the victim was armed.
Defendant Derrick Moore said that his car, which belonged to his mother, was parked
“around back,” that the hammer was inside the car, and that the detectives could look at
the hammer. Defendant Derrick Moore said that he and the victim said, “What’s up?” to
each other, that they “squared off,” and that he grabbed the victim. Defendant Derrick
Moore described the altercation as “tussling” and said that the next thing he heard was
five or six gunshots, that he ducked, that he thought he had been shot, that everyone ran,
and that he drove home. He said that he “still had hands on” victim when the shooting
began and that the victim was standing when Defendant Derrick Moore ran to his car.
Defendant Derrick Moore said that the shots came from behind, that he never looked
back, that he ran to his car, and that he drove home.
Defendant Derrick Moore stated that numerous people had called him, reporting
various stories of what had occurred. When the detectives asked about the substance of
those stories, he said people were saying that he “put a hit out on” the victim. Defendant
Derrick Moore denied hiring someone to kill the victim “over some s--- from six months
ago and I can find [the victim] whenever I get ready.” Defendant Derrick Moore said
that other stories included that the victim was “ganged” and was run over by a car.
Defendant Derrick Moore stated that he did not know who fired the shots because
he did not look. He said that he and the victim wrestled, that nobody was able to “throw
any blows,” and that he did not have any scratches or injuries. He said that he placed the
victim in a headlock, that the victim “broke loose,” that they “sparred back up,” and that
he heard gunshots. He said that “Pun” and “Trayco” were at the scene when he arrived
but that he could not identify any of the remaining people because he focused on the
victim. Defendant Derrick Moore denied having a handgun when the shooting occurred
and said Defendant Demichael Moore was not at the scene. Defendant Derrick Moore
said his wife “changed” him “from the streets to in the house.”
Defendant Derrick Moore stated that, when he approached the victim, he only
wanted the money the victim had taken and that he had the hammer because he did not
know if the victim had a handgun. He denied intending to use the hammer in order to get
-8-

Pet. App'x p. 9

his money. He said he happened to see the victim wearing a red Wendy’s shirt and
denied he had been looking for the victim.
Defendant Derrick Moore stated that, months before the shooting, he and the
victim participated in a dice game, that the victim “hit my pointer,” and that he wanted
the money he won. He said that the victim stated the victim “caught ´em” and pulled out
a handgun. Defendant Derrick Moore said that the victim took approximately thirty to
forty dollars at gunpoint and fled the area.
Defendant Derrick Moore stated that, on the night of the shooting, he arrived
home around 7:45 p.m. and that he spoke to Defendant Demichael Moore at
approximately 8:00 p.m. He said that between 9:00 p.m. and 10:00 p.m., his father and
Defendant Demichael Moore came to his home to talk about what had occurred.
Defendant Derrick Moore consented to the detectives’ retrieving the hammer from
his car. He stated that he had the hammer because he did not know if the victim had a
handgun but that he never saw the victim display a gun. He said that the victim had one
hand on the hammer during the struggle. Defendant Derrick Moore said that he arrived
home at 6:30 p.m. after work and that he drove to his parents’ home, arriving around 7:00
p.m.
The detective told Defendant Derrick Moore that multiple witnesses reported that
he had a handgun when he approached the victim, not a hammer, and that the incident
was related to a previous robbery of a handgun, not money. Defendant Derrick Moore
said that he knew about a robbery of a handgun but that the handgun was not stolen from
him. He said that the gun “wasn’t even the issue” and that, as a result, he did not mention
it. He admitted, though, his altercation with the victim was about “a past beef.” The
detective asked if Defendant Demichael Moore shot the victim after seeing him fight with
the victim, and Defendant Derrick Moore said that his brother was not at the scene.
Defendant Derrick Moore denied talking on the phone to his brother and
exchanging text messages just before arriving at the dice game but said he spoke with his
wife and brother earlier in the day. He offered to allow the detectives to review his
wife’s cell phone to confirm when he spoke to her. He denied speaking with Defendant
Demichael Moore about the shooting and provided the detective with two telephone
numbers connected to Defendant Demichael Moore after attempting to call Defendant
Demichael Moore during the interview.
The detective told Defendant Derrick Moore that the victim was executed based
upon at least six gunshot wounds and the thirteen cartridge casings found at the scene.
Defendant Derrick Moore denied owning and carrying a handgun. He said that he did not
know who shot the victim and that he could not recall every person at the scene. The
detective asked, “How many other people you know would shoot a guy for you,” and
-9-

Pet. App'x p. 10

Defendant Derrick Moore responded, “Anybody out there.” Defendant Derrick Moore
said, “Anything I want to happen I can make happen . . . I just don’t condone . . . that s--no more.” He said that he and his brother were “on two separate pages.”
Detective Weeks testified that Defendant Derrick Moore did not identify
Defendant Demichael Moore as having been at the scene. Detective Weeks identified the
hammer recovered from Defendant Derrick Moore’s car.
Detective Weeks testified that he obtained a DNA sample from Defendant Derrick
Moore and conducted a second interview with him in November 2013. Detective Weeks
said that, during the interview, he confronted Defendant Derrick Moore about having
taken the victim’s property during the shooting and about information related to the
victim’s cell phone records. Detective Weeks explained that cell phone records showed
that, after the time of the shooting, the victim’s phone used cell phone towers “moving
away from the crime scene,” which led Detective Weeks to conclude that the victim’s
phone was moving after the shooting. A portion of the audio-recorded interview was
played for the jury.
In the recording, the detective asked Defendant Derrick Moore why the victim’s
cell phone would have “show[ed] up on the way to your house,” and Defendant Derrick
Moore said, “I didn’t take nothing, I didn’t take nothing. I didn’t take, I didn’t get a
chance.” He denied taking money, keys, and a cell phone. He said, “So if you saying
they was showing up on the way to my house I’ll find them, but you’ll have to tell me . . .
. I mean, not like that, but I just don’t see that happening. I was by myself when I left.
My phone was dead.”
Detective Weeks testified that in October 2013, he interviewed Defendant
Demichael Moore, who stated he had been at home when the shooting occurred and at
Defendant Derrick Moore’s home afterward. Detective Weeks said that Defendant
Demichael Moore described Defendant Derrick Moore as agitated and “freaking out.”
Detective Weeks obtained Defendant Demichael Moore’s DNA.
Detective Weeks identified Defendant Demichael Moore’s cell phone number,
records of which were received as an exhibit. Detective Weeks stated that Defendant
Demichael Moore provided his phone number, although the phone belonged to Defendant
Demichael Moore’s father, Steven Brown. Detective Weeks identified a cell phone
number previously associated with Defendant Demichael Moore, records of which were
received as an exhibit. Detective Weeks identified another cell phone number associated
with Defendant Demichael Moore, and the corresponding records were received as an
exhibit. Detective Weeks identified Defendant Derrick Moore’s cell phone number,
records of which were received as an exhibit. The victim’s cell phone records were,
likewise, received as an exhibit.
-10-

Pet. App'x p. 11

Detective Weeks testified that the cell phone number previously associated with
Defendant Demichael Moore was “active” at the time of the shooting but was deactivated
in the early morning hours on the day after the shooting. Detective Weeks said that a
third cell phone number associated with Defendant Demichael Moore was activated on
September 28, 2013, at 7:48 a.m., which was the day after the shooting. Detective Weeks
said that, during his investigation, Defendant Demichael Moore contacted him from the
number activated on the day after the shooting.
On cross-examination, Detective Weeks testified that Mr. Miller did not appear to
have animosity toward the Defendants and agreed that Defendant Derrick Moore reported
having “let go” of a previous incident during which a gun was “pulled” on Defendant
Derrick Moore. Detective Weeks said that Defendant Derrick Moore reported stopping
at the scene to recover a debt from the victim, that he retrieved the hammer because the
victim was known to carry a handgun, that he hid the hammer in his shirt sleeve, and that
he was initially unable to use the hammer against the victim in an effort to recover the
debt. Detective Weeks agreed that as Defendant Derrick Moore approached the dice
game, he and the victim fought, that Defendant Derrick Moore placed the victim in a
“headlock,” and that someone shot the victim as the men were “wrestling” on the ground.
Detective Weeks did not think Defendant Derrick Moore shot the victim.
Detective Weeks testified, though, that Defendant Derrick Moore intended “to
take things” from the victim and had planned to obtain a weapon before he approached
the victim. Detective Weeks agreed the direct evidence did not show that Defendant
Derrick Moore took anything from the victim, “[o]nly that someone did.” Detective
Weeks disputed that any of the ten to twelve people at the dice game could have taken the
victim’s belongings as everyone fled the scene during the shooting. Detective Weeks
said that “there is the potential . . . opportunity I believe exists . . . where things could be
removed” by Defendant Derrick Moore. Detective Weeks agreed a five-dollar bill was
found at the scene.
Detective Weeks testified that Mr. Miller was the only witness who “put the gun
in” Defendant Derrick Moore’s hand. Detective Weeks agreed that a search of Defendant
Derrick Moore’s home did not result in locating evidence connected to the shooting.
Detective Weeks agreed that multiple witnesses falsely identified Defendant Derrick
Moore as the shooter.
Detective Weeks testified that a search of Defendant Demichael Moore’s home
did not produce any evidence connected to the victim’s death. Detective Weeks said that
Defendant Derrick Moore identified Defendant Demichael Moore’s cell phone number as
the number that was active at the time of the shooting but was deactivated in the early
morning hours on the day following the shooting.

-11-

Pet. App'x p. 12

Metro Nashville Police Detective Joseph High, an expert in cell phone call detail
record analysis, testified that he reviewed data related to four cell phone numbers. He
reviewed records between September 13, 2013, and October 3, 2013, related to the
victim’s phone, Defendant Demichael Moore’s two phones, and Defendant Derrick
Moore’s phone. His report was received as an exhibit. Detective High stated that
Defendant Demichael Moore’s phone placed calls at 5:06 p.m., 5:08 p.m., and 5:14 p.m.
on the day of the shooting, and that the phone used a cell tower near the crime scene.
Detective High said that a second phone associated with Defendant Demichael Moore
placed an outgoing call a few minutes later and used the same cell tower. Detective High
stated that the victim’s cell phone placed three calls around the same time and that the
phone used the same cell tower. Detective High said that the victim’s cell phone used the
same tower again at 6:02 p.m. and 6:18 p.m.
Detective High testified that, at 6:46 p.m., Defendant Derrick Moore’s cell phone
placed an outgoing call to Defendant Demichael Moore’s phone and that the phone used
different cell towers during the call, indicating that the phone was traveling toward the
crime scene. Detective High said that, at 7:26 p.m., Defendant Demichael Moore’s
phone attempted to place a call to Defendant Derrick Moore’s phone and that later
Defendant Demichael Moore’s phone used a cell tower on the opposite side of town away
from the scene. Detective High said that by 8:00 p.m., Defendant Derrick Moore’s phone
used a tower near Defendant Derrick Moore’s home and that Defendant Demichael
Moore’s phone used a tower near Defendant Demichael Moore’s home. Detective High
said that the victim’s cell phone did not reflect activity after 6:23 p.m. but that the
victim’s phone received multiple incoming calls, which were likely unanswered based
upon the short durations, around 8:30 p.m. Detective High’s report showed that, at the
time these calls occurred after the shooting, the victim’s cell phone used a different tower
than the tower located near the scene and that the tower was located between Defendant
Derrick Moore’s home and the scene.
On cross-examination, Detective High testified that the data did not identify who
placed and received cell phone calls and did not reveal the substance of any conversation.
He agreed the records did not identify the specific locations of the cell phones.
Dr. Adele Lewis, chief medical examiner and an expert in forensic pathology,
testified that she performed the victim’s autopsy. She determined that the cause of death
was multiple gunshot wounds and that the manner of death was homicide. She stated that
the victim had been shot five times in the right leg, eight times in the left leg, and once in
the left hand. She said that the gunshot wounds damaged the victim’s femoral artery,
causing excessive blood loss, oxygen deprivation, and brain death. The autopsy report
and photographs were received as exhibits. On cross-examination, Dr. Lewis testified
that she found only one abrasion on the victim and that she saw no evidence showing the
victim had been in a fight before the shooting.
-12-

Pet. App'x p. 13

Steven Brown, the Defendants’ father, testified on behalf of the defense that
Defendant Demichael Moore lived with him. Mr. Brown said that Defendant Demichael
Moore was at home when Mr. Brown arrived around 5:00 p.m. on the day of the
shooting. Mr. Brown said that Defendant Demichael Moore played music and talked on
his cell phone from his bedroom and that Defendant Derrick Moore arrived at the home
around 6:25 p.m. Mr. Brown said that, after talking for a few minutes, Defendant Derrick
Moore entered Defendant Demichael Moore’s bedroom. Mr. Brown said that Defendant
Derrick Moore stayed approximately twenty minutes and that he next saw Defendant
Demichael Moore around 9:20 p.m. Mr. Brown said that he heard Defendant Demichael
Moore “in the refrigerator” about twenty minutes after Defendant Derrick Moore left.
Mr. Brown said that he drove to Defendant Derrick Moore’s home later that night
because he heard Defendant Derrick Moore had been “involved in a situation.”
On cross-examination, Mr. Brown testified that his home was about a ten-minute
walk from the crime scene. He knew Defendant Demichael Moore gambled. Mr. Brown
said that, at the time of the shooting, he had two cell phones and that Defendant
Demichael Moore used one of them. Mr. Brown said that he received a phone call on the
night of the shooting as he walked toward the scene to investigate the “blue lights.” Mr.
Brown clarified that Defendant Derrick Moore did not own a car but that friends drove
him. Mr. Brown said that he left home for Defendant Derrick Moore’s home at
approximately 10:00 p.m. and that Defendant Demichael Moore left the home at the same
time with Mr. Brown’s daughter, who also drove to Defendant Derrick Moore’s home.
Mr. Brown testified that he went to Defendant Derrick Moore’s home at around
10:00 p.m. because of the shooting, that he and Defendant Demichael Moore stayed for
about two hours, and that they attempted to “find out what happened.” Mr. Brown said
Defendant Derrick Moore appeared calm.
Upon this evidence, the jury convicted the Defendant Derrick Moore of felony
murder, criminally negligent homicide, and especially aggravated robbery. The jury
convicted Defendant Demichael Moore of first degree felony murder, second degree
murder, and especially aggravated robbery. This appeal followed.
I.

Sufficiency of the Evidence

The Defendants contend that the evidence is insufficient to support their
convictions. The State responds that the evidence is sufficient. We agree with the State.
In determining the sufficiency of the evidence, the standard of review is “whether,
after viewing the evidence in the light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979); see State v. Vasques, 221 S.W.3d 514,
521 (Tenn. 2007). The State is “afforded the strongest legitimate view of the evidence
-13-

Pet. App'x p. 14

and all reasonable inferences” from that evidence. Vasques, 221 S.W.3d at 521. The
appellate courts do not “reweigh or reevaluate the evidence,” and questions regarding
“the credibility of witnesses [and] the weight and value to be given the evidence . . . are
resolved by the trier of fact.” State v. Bland, 958 S.W.2d 651, 659 (Tenn. 1997); see
State v. Sheffield, 676 S.W.2d 542, 547 (Tenn. 1984).
“A crime may be established by direct evidence, circumstantial evidence, or a
combination of the two.” State v. Hall, 976 S.W.2d 121, 140 (Tenn. 1998); see State v.
Sutton, 166 S.W.3d 686, 691 (Tenn. 2005). “The standard of review ‘is the same whether
the conviction is based upon direct or circumstantial evidence.’” State v. Dorantes, 331
S.W.3d 370, 379 (Tenn. 2011) (quoting State v. Hanson, 279 S.W.3d 265, 275 (Tenn.
2009)). A conviction may be based upon circumstantial evidence alone. See Dorantes,
331 S.W.3d at 380-381.
A.

Felony Murder and Especially Aggravated Robbery

The Defendants were convicted of felony murder and especially aggravated
robbery. As relevant to the present case, first degree felony murder is “[a] killing of
another committed in the perpetration of or attempt to perpetrate any . . . robbery[.]”
T.C.A. § 39-13-202(a)(2). Especially aggravated robbery “is the intentional or knowing
theft of property from the person of another by violence or putting the person in fear”
which is “[a]ccomplished with a deadly weapon” and in which “the victim suffers serious
bodily injury.” Id. §§ 39-13-401(a) (2018), -403(a)(1)-(2).
In the light most favorable to the State, the evidence reflects that the victim left
home with his cell phone and approximately $200 to participate in the dice game. Mr.
Wiley, who drove the victim to the dice game, identified Defendant Demichael Moore as
the game’s controller, and DNA evidence from cigar butts placed Defendant Demichael
Moore at the scene. When Mr. Wiley was at the game, Defendant Demichael Moore
talked to Defendant Derrick Moore on the phone and reported that Defendant Derrick
Moore was “on his way” to the game. Cell phone records supported Mr. Wiley’s
testimony in this regard. When Defendant Derrick Moore arrived at the game, Mr. Miller
saw Defendant Derrick Moore pull out a handgun and point it at the victim. Defendant
Derrick Moore and the victim struggled, and the victim almost took the handgun away
from Defendant Derrick Moore. However, Defendant Demichael Moore took the
handgun, pointed it only at the victim, and fired it multiple times. Approximately twelve
cartridge casings were recovered from the scene, and the victim sustained fourteen
gunshot wounds during the shooting. The victim’s money and cell phone were never
recovered. However, cell phone records reflect that, before the shooting, the victim’s
phone used a tower near the scene but that, after the shooting, the victim’s cell phone
used a different tower located between the scene and Defendant Derrick Moore’s home.
Although Mr. Miller and Mr. Wiley stated that the victim had taken Defendant Derrick
Moore’s handgun during a robbery a few months before the shooting, Defendant Derrick
-14-

Pet. App'x p. 15

Moore admitted during his police interview that he approached the victim at the dice
game with the intent to take money from the victim, who previously robbed Defendant
Derrick Moore at gunpoint.
We conclude that the evidence is sufficient to support the Defendants’ convictions
for especially aggravated robbery and first degree felony murder. The evidence showed
that Defendant Demichael Moore contacted Defendant Derrick Moore from the dice
game and that Defendant Derrick Moore arrived at the game afterward. Furthermore,
Defendant Derrick Moore obtained a handgun before leaving his car and approached the
victim with the intent to take money from the victim. As the Defendant Derrick Moore
attempted to take money from the victim, an altercation ensued, and Defendant
Demichael Moore took the handgun and shot the victim multiple times, resulting in the
victim’s death.
In determining that the evidence is sufficient to support the especially aggravated
robbery convictions, we have not overlooked the Defendants’ argument that the victim’s
cell phone and money were not recovered from their respective homes. Cell phone
records reflect, though, that the victim’s phone used a cell tower near Defendant Derrick
Moore’s home after the shooting. The jury could have reasonably inferred from this
circumstantial evidence that Defendant Derrick Moore had taken the victim’s money and
cell phone. See Dorantes, 331 S.W.3d at 386. The Defendants are not entitled to relief
on this basis.
B.

Criminally Negligent Homicide

Defendant Derrick Moore was convicted of criminally negligent homicide.
Criminally negligent homicide is defined as “[c]riminally negligent conduct that results
in death.” T.C.A. § 39-13-212.
‘Criminal negligence’ refers to a person who acts with criminal negligence
with respect to the circumstances surrounding that person’s conduct or the
result of that conduct when the person ought to be aware of a substantial
and unjustifiable risk that the circumstances exist or the result will occur.
The risk must be of such a nature and degree that the failure to perceive it
constitutes a gross deviation from the standard of care that an ordinary
person would exercise under all the circumstances as viewed from the
accused person’s standpoint[.]
Id. § 39-11-106(a)(4) (2018); see State v. Slater, 841 S.W.2d 841, 842 (Tenn. Crim. App.
1992); State v. Owens, 820 S.W.2d 757, 760-61 (Tenn. Crim. App. 1991). “[T]he
evidence can show an intentional or knowing killing which is unjustified or a killing
which was proximately caused by reckless or criminally negligent conduct.” State v.
-15-

Pet. App'x p. 16

Butler, 880 S.W.2d 395, 398 (Tenn. Crim. App. 1994); see State v. Jones, 151 S.W.3d
494, 499 (Tenn. 2004); State v. Farner, 66 S.W.3d 188, 199 (Tenn. 2001).
In the light most favorable to the State, the evidence reflects that Defendant
Demichael Moore contacted Defendant Derrick Moore from the dice game, and
Defendant Derrick Moore arrived at the game afterward. Furthermore, Defendant
Derrick Moore obtained a handgun before leaving his car and approached the victim with
the intent to take money from the victim. An altercation ensued, and Defendant
Demichael Moore took the gun and shot the victim multiple times, resulting in the
victim’s death.
We conclude that the evidence supports a determination that Defendant Derrick
Moore either failed to perceive or perceived and disregarded the substantial and
unjustifiable risk of bodily harm and death created by his displaying a handgun to
accomplish a robbery. The evidence supports a jury’s determination that Defendant
Derrick Moore’s bringing a handgun to commit a robbery created a substantial and
unjustifiable risk of bodily injury or death to the victim. Furthermore, even if Defendant
Derrick Moore had not intended to harm the victim, Defendant Derrick Moore’s conduct
created a substantial and unjustifiable risk to the victim. The evidence supports a
determination that Defendant Derrick Moore was aware of, but disregarded, the risk
created by displaying a firearm at the victim and that his failure to perceive the risk was a
gross deviation from the standard of care that an ordinary person would exercise.
Defendant Derrick Moore is not entitled to relief on this basis.
C.

Second Degree Murder

Defendant Demichael Moore was convicted of second degree murder, which is
defined as a knowing killing of another. T.C.A. § 39-13-210(a)(1); see id. § 39-11106(a)(20). Second degree murder is a result-of-conduct offense. State v. Page, 81
S.W.3d 781, 787 (Tenn. Crim. App. 2002). Therefore, a person acts knowingly “when
the person is aware that the conduct is reasonably certain to cause the result.” T.C.A. §
39-11-302(b) (2014).
“[T]he ‘nature of the conduct’ that causes death is
inconsequential.” Page, 81 S.W.3d at 787. A knowing intent is shown if the defendant
acts with an awareness that his conduct is reasonably certain to cause the victim’s death.
See id. at 790-93.
In the light most favorable to the State, the evidence reflects that Defendant
Derrick Moore brought a handgun to take money from the victim, and an altercation
between the victim and Defendant Derrick Moore occurred. During the altercation,
Defendant Demichael Moore obtained the handgun, pointed it at the victim, and fired it
multiple times, resulting in the victim’s sustaining fourteen gunshot wounds and in the
victim’s death. We conclude that evidence is sufficient to establish that Defendant
Demichael Moore acted with an awareness that his conduct was reasonably certain to
-16-

Pet. App'x p. 17

cause the victim’s death. Defendant Demichael Moore is not entitled to relief on this
basis.
II.

Admission of Mr. Miller’s Recorded Statement

The Defendants contend that the trial court erred by admitting as substantive
evidence the recording of Mr. Miller’s police statement. The Defendants argue that the
statement was inadmissible hearsay and that its admission violated their confrontation
rights. The State responds that the trial court properly determined that the recording was
admissible as a prior inconsistent statement and that the recording did not violate the
Defendants’ confrontation rights.
At the trial, Mr. Miller testified that he had suffered a brain injury and had no
recollection of 2013 when the shooting occurred. Mr. Miller, likewise, did not recall
speaking to the police on the day after the shooting. Detective Weeks testified that, on
the day after the shooting, he and Detective Curtis Haifley picked up Mr. Miller from
where the shooting occurred, that Mr. Miller had a nervous and concerned demeanor, that
Mr. Miller expressed fear for his life, and that Mr. Miller was apprehensive about
speaking to the police. Detective Weeks testified that Mr. Miller did not appear to have
been under the influence of any substances. Detective Weeks said that he recorded their
conversation, although he did not inform Mr. Miller of the recording. The State
requested permission to play the recording, and the Defendants objected.
At the jury-out hearing, defense counsel questioned Detective Weeks about the
recording. Detective Weeks stated that Mr. Miller initially denied having any
information about the shooting. Detective Weeks agreed that Mr. Miller asked for “any
sort of reward money” in exchange for information about the shooting. Detective Weeks
did not recall Mr. Miller’s financial condition but agreed it was possible Mr. Miller stated
he would help the police if the police paid him. Detective Weeks stated that his usual
practice was to record witness statements and that he rarely requested a witness provide a
written statement.
Defense counsel argued that Mr. Miller’s recorded statement was inadmissible as a
prior inconsistent statement pursuant to Tennessee Rule of Evidence 803(26) because the
recording lacked an indication of trustworthiness. Counsel argued that the statement was
made the day after the shooting, that Mr. Miller previously denied having any knowledge
about the shooting, and that there was “no telling how many street stories” Mr. Miller had
heard between the time of the shooting and when he spoke to the detectives. Counsel
noted that Mr. Miller was an admitted drug user at the time of the shooting and “decided
to sell the information” and that Mr. Miller now denied having any recollection of his
conversation with the detectives, the shooting, and the dice game. Counsel argued that
Mr. Miller “could have and would have manufactured the story from what he heard on
-17-

Pet. App'x p. 18

the street” because Mr. Miller wanted money. Counsel likewise argued that admission of
the recording violated the Defendants’ confrontation rights.
The prosecutor argued that the recording was substantive evidence as a prior
inconsistent statement and that Detective Weeks’ testimony established the
trustworthiness of Mr. Miller’s recorded statement. The prosecutor noted that, in the
recording, the detectives “quickly dispelled the fact that Mr. Miller would be receiving
any money from this interview notwithstanding that . . . Mr. Miller goes ahead and tells
them about the shooting.” The prosecutor did not address whether admission of the
recording violated the Defendants’ confrontation rights.
The trial court noted that the purpose of the prior inconsistent statement exception
to the rule barring the admission to hearsay evidence was to allow testimony in domestic
violence and gang-related cases in which witnesses became reluctant to testify. The court
determined that the conversation was preserved as an audio recording, that Mr. Miller
had testified at the trial, and that Mr. Miller lacked sufficient memory at the time of the
trial. The court concluded that the State had established by a preponderance of the
evidence that the statement was made under circumstances indicating trustworthiness.
The court found that Mr. Miller expressed concern in the recording that his name would
be revealed, which supported the trustworthiness of the statement, that Mr. Miller was
adamant about the identity of the shooter and the events leading to the shooting, and that
the detectives verified the information provided by Mr. Miller. The court found that Mr.
Miller discussed “riffs” about a stolen gun belonging to Defendant Derrick Moore, which
was consistent with Mr. Wiley’s testimony, stated that the victim was shot twelve times,
which was consistent with the number of cartridge casings found at the scene, and said
that Mr. Wiley dropped off the victim at the scene, which was consistent with Mr.
Wiley’s testimony. The court determined that Mr. Miller’s statement did not involve
“street stories” and that the evidence did not show Mr. Miller was paid for his statement.
The court found that, in the recording, the detectives referred Mr. Miller to Crime
Stoppers. The court also determined that Mr. Miller was articulate and coherent in the
recording and did not display any indication of intoxication. The court stated that the
prior inconsistent statement hearsay exception could be applied when a witness had a
lack of memory or recollection. The court determined that the substance of Mr. Miller’s
recorded statement was inconsistent with his trial testimony because he did not recall the
shooting and speaking with the police about the shooting the day after it occurred. The
court determined that the recording was admissible as a prior inconsistent statement and
that the Defendants’ confrontation rights would not be violated by its admission.
A.

Prior Inconsistent Statements

Hearsay “is a statement, other than one made by the declarant while testifying at
the trial or hearing, offered in evidence to prove the truth of the matter asserted.” Tenn.
R. Evid. 801(c). Hearsay is inadmissible unless it qualifies as an exception. Id. at 802.
-18-

Pet. App'x p. 19

One such exception pertains to prior inconsistent statements of a testifying witness.
Extrinsic evidence of a prior inconsistent statement by a witness is not
admissible unless and until the witness is afforded the opportunity to
explain or deny the same and the opposite party is afforded an opportunity
to interrogate the witness thereon, or the interests of justice otherwise
require. This provision does not apply to admission of a party-opponent as
defined in Rule 803(1.2).
Tenn. R. Evid. 613(b). A hearsay exception exists for:
A statement otherwise admissible under Rule 613(b) if all of the following
conditions are satisfied:
(A) The declarant must testify at the trial or hearing and be subject
to cross-examination concerning the statement.
(B) The statement must be an audio or video recorded statement, a
written statement signed by the witness, or a statement given under oath.
(C) The judge must conduct a hearing outside the presence of the
jury to determine by a preponderance of the evidence that the prior
statement was made under circumstances indicating trustworthiness.
Tenn. R. Evid. 803(26). Our supreme court has determined that “a prior statement about
events that a witness claims at trial to be unable to remember is ‘inconsistent’ with the
witness’ trial testimony,” regardless of whether the memory loss is genuine, feigned, or
exaggerated. State v. Davis, 466 S.W.3d 49, 64 (Tenn. 2015).
A trial court’s factual findings and credibility determinations relative to a hearsay
issue are binding upon an appellate court unless the evidence preponderates against them.
Kendrick v. State, 454 S.W.3d 450, 479 (Tenn. 2015). The determination of whether the
statement in question is hearsay and whether a hearsay exception applies are questions of
law that are reviewed de novo. Id.
In the present case, Mr. Miller’s police statement was audio recorded by Detective
Weeks the day after the shooting. Mr. Miller testified at the trial that he had suffered a
brain injury and had no recollection of 2013 when the shooting occurred. Mr. Miller,
likewise, did not recall speaking to the police about the shooting. Defense counsel crossexamined Mr. Miller. Therefore, the requirements of Tennessee Rule of Evidence
803(26) were satisfied.
Likewise, the record supports the trial court’s determination that the statement was
-19-

Pet. App'x p. 20

made pursuant to circumstances indicating trustworthiness. Although Mr. Miller testified
at the trial that he used drugs at the time of the shooting, Mr. Wiley testified that nobody
at the dice game appeared to be under the influence of alcohol or controlled substances.
Likewise, Detective Weeks testified that Mr. Miller did not appear to be under the
influence of drugs at the time of the interview, and Mr. Miller was clear and coherent in
the recording. Detective Weeks testified that Mr. Miller had a nervous and concerned
demeanor, had been apprehensive to speak with the police, expressed fear for his life
because he was speaking to the police, and wanted assurances that he would not be
identified as a witness to the shooting. Although Mr. Miller wanted money in exchange
for his statement, the detectives explained that Crime Stoppers paid any reward and that
the detectives could not pay Mr. Miller in exchange for information. Mr. Miller spoke to
the detectives without receiving money. Mr. Miller was unequivocal about the shooter’s
identity and about the events leading to and during the shooting. Mr. Miller discussed the
previous robbery between the victim and Defendant Derrick Moore, which was consistent
with Mr. Wiley’s testimony. Likewise, Mr. Miller stated that Mr. Wiley dropped off the
victim at the dice game and that Mr. Wiley left the scene before the shooting occurred, all
of which was consistent with Mr. Wiley’s testimony. Mr. Miller discussed the numerous
times the victim had been shot, which was consistent with the medical examiner’s
testimony and with the cartridge casings recovered from the scene. Furthermore, the
detectives continued to investigate the shooting after speaking with Mr. Miller to verify
the information he provided.
The trial court followed the mandates of Tennessee Rule of Evidence 803(26), and
the record supports the court’s determinations. Therefore, we conclude that the court did
not err by admitting Mr. Miller’s audio-recorded statement as substantive evidence. The
Defendants are not entitled to relief on this basis.
B.

Confrontation Clause

The Confrontation Clause provides a criminal defendant the right to confront and
cross-examine witnesses. See U.S. Const. amends. VI, XIV; Tenn. Const. art. I, § 9;
State v. Williams, 913 S.W.2d 462, 465 (Tenn. 1996). In State v. McCoy, 459 S.W.1, 1314 (Tenn. 2014), our supreme court said that Article I, section 9 of the Tennessee
Constitution placed no additional restrictions on the admission of hearsay statements
beyond the limits of the federal constitution, as explained in Crawford v. Washington,
541 U.S. 36, 59 (2004). Thus, the same standards apply in interpreting a defendant’s
confrontation rights under the state and federal constitutions. See State v. Hutchison, 482
S.W.3d 893, 905 (Tenn. 2016). In analyzing whether an out-of-court statement is barred
by the Confrontation Clause, inquiry begins with “whether the challenged statement is
testimonial.” See id.; State v. Dotson, 450 S.W.3d 1, 63 (Tenn. 2014). The Confrontation
Clause has no bearing on the admission of statements which are nontestimonial hearsay.
Hutchison, 482 S.W.3d at 905-06 (citing Davis v. Washington, 547 U.S. 813, 823–24
(2006)); State v. Dotson, 450 S.W.3d 1, 63 (Tenn. 2014). Thus, the admissibility of a
-20-

Pet. App'x p. 21

nontestimonial statement is determined by the traditional rules regarding the admission of
hearsay evidence. State v. Cannon, 254 S.W.3d 287, 303 (Tenn. 2008); see Davis, 547
U.S. at 821.
A precise definition of what constitutes a testimonial statement has proven elusive.
See, e.g., Williams v. Illinois, 567 U.S. 50 (2012) (proposing, in a plurality and two
separate opinions, three methods for determining whether a statement is testimonial);
Dotson; 450 S.W.3d at 68-70 (noting the difficulty of discerning a cohesive, narrow rule
from the fractured opinions of the Williams court). Recently, our supreme court analyzed
Williams and prescribed a framework for determining which evidence is testimonial. See
Dotson, 450 S.W.3d at 69. In this regard, a statement is testimonial “‘if its primary
purpose is evidentiary and it is either a targeted accusation or sufficiently formal in
character.’” Dotson, 450 S.W.3d at 69 (quoting Young v. United States, 63 A.3d 1033,
1043-44 (D.C. 2013)); see Hutchison, 482 S.W.3d at 910.
In determining what statements are testimonial, our supreme court has also looked
to the examples provided by Crawford:
Various formulations of this core class of “testimonial” statements exist:
“ex parte in-court testimony or its functional equivalent—that is, material
such as affidavits, custodial examinations, prior testimony that the
defendant was unable to cross-examine, or similar pretrial statements that
declarants would reasonably expect to be used prosecutorially,”
“extrajudicial statements . . . contained in formalized testimonial materials,
such as affidavits, depositions, prior testimony, or confessions,”
“statements that were made under circumstances which would lead an
objective witness reasonably to believe that the statement would be
available for use at a later trial.” These formulations all share a common
nucleus and then define the Clause’s coverage at various levels of
abstraction around it. Regardless of the precise articulation, some
statements qualify under any definition—for example, ex parte testimony at
a preliminary hearing.
Hutchison, 482 S.W.3d at 906 (quoting Crawford, 541 U.S. at 51-52).
In order for a testimonial statement to be admissible, the declarant must be
unavailable to testify, and the defendant must have had a prior opportunity to crossexamine the declarant.
Crawford, 541 U.S. at 53-55; see Melendez-Diaz v.
Massachusetts, 557 U.S. 305, 309 (2009). However, the Confrontation Clause is not
implicated when testimonial statements are not used to show the truth of the matter
asserted. Crawford, 541 U.S. at 59 n.9. Similarly, no Confrontation Clause violation
occurs if the declarant is called as a trial witness and is subject to cross-examination
regarding the declarant’s prior testimonial statements. See Dotson, 450 S.W.3d at 73; see
-21-

Pet. App'x p. 22

also Crawford, 541 U.S. at 59, n.9; California v. Green, 399 U.S. 149, 162 (1970).
Although Mr. Miller’s audio-recorded statement contains admissible hearsay
evidence pursuant to the rules of evidence, our inquiry must include whether admission
of the statement violated the Defendants’ confrontation rights. The record reflects that
the statement’s primary purpose was substantive evidence of the Defendants’ guilt and
that the statement was a targeted accusation against the Defendants. Therefore, the
statement was testimonial. See Dotson, 450 S.W.3d at 69. However, Mr. Miller testified
at the trial, and the Defendants had the opportunity to cross-examine him. Our supreme
court has determined that “even when a trial court admits a witness’ hearsay statements
as substantive evidence, and the witness claims at trial not to remember the information
contained within the hearsay statements, the Confrontation Clause is not violated when a
defendant has an opportunity to cross-examine the witness at trial.” State v. Davis, 466
S.W.3d 49, 69 (Tenn. 2015). As a result, the trial court did not err by determining that
admission of the recording did not violate the Defendants’ confrontation rights. The
Defendants are not entitled to relief on this basis.

III.

Prosecutorial Misconduct

The Defendants contend that prosecutorial misconduct occurred during the State’s
rebuttal argument because the prosecutor misstated the legal standard for felony murder
and stated that Defendant Derrick Moore had confessed to felony murder. The
Defendants argue that the prosecutor’s comments prejudiced the outcome of the trial.
The State responds that the prosecutor’s comments were not improper because the
prosecutor referenced Defendant Derrick Moore’s admissions during his police interview
and the requirements for establishing felony murder. We agree with the State.
As a preliminary matter, the Defendants concede that the defense did not object
contemporaneously during the State’s rebuttal argument, although the issue was raised in
the motions for a new trial. The Defendants request that we review this issue for plain
error, and as a result, we limit our review accordingly. See State v. Jordan, 325 S.W.3d
1, 57-58 (Tenn. 2010).
Five factors are relevant
when deciding whether an error constitutes “plain error” in
the absence of an objection at trial: “(a) the record must
clearly establish what occurred in the trial court; (b) a clear
and unequivocal rule of law must have been breached; (c) a
substantial right of the accused must have been adversely
-22-

Pet. App'x p. 23

affected; (d) the accused did not waive the issue for tactical
reasons; and (e) consideration of the error is ‘necessary to do
substantial justice.’”
State v. Smith, 24 S.W.3d 274, 282 (Tenn. 2000) (quoting State v. Adkisson, 899 S.W.2d
626, 641-42 (Tenn. Crim. App. 1994)). All five factors must exist in order for plain error
to be recognized. Id. at 283. “[C]omplete consideration of all the factors is not necessary
when it is clear from the record that at least one of the factors cannot be established.” Id.
In order for this court to reverse the judgment of a trial court, the error must be “of such a
great magnitude that it probably changed the outcome of the trial.” Id.; Adkisson, 899
S.W.2d at 642.
Closing argument is “a valuable privilege that should not be unduly restricted.”
Terry v. State, 46 S.W.3d 147, 156 (Tenn. 2001); see State v. Bane, 57 S.W.3d 411, 425
(Tenn. 2001); State v. Cauthern, 967 S.W.2d 726, 737 (Tenn. 1998). However, closing
argument “must be temperate, based upon the evidence introduced at trial, relevant to the
issues being tried, and not otherwise improper under the facts or law.” State v. Goltz, 111
S.W.3d 1, 5 (Tenn. Crim. App. 2003); see Jordan, 325 S.W.3d at 64. A trial court has
significant discretion in controlling closing argument, and its decisions relative to the
contents of argument may only be reversed upon an abuse of discretion. Terry, 46
S.W.3d at 156; Cauthern, 967 S.W.2d at 737; Smith v. State, 527 S.W.2d 737, 739 (Tenn.
1975).
Although an exhaustive list of the bounds of prosecutorial impropriety cannot be
defined, five general areas of prosecutorial misconduct have been recognized:
1. It is unprofessional conduct for the prosecutor intentionally to misstate
the evidence or mislead the jury as to the inferences it may draw.
2. It is unprofessional conduct for the prosecutor to express his personal
belief or opinion as to the truth or falsity of any testimony or evidence or
the guilt of the defendant. See State v. Thornton, 10 S.W.3d 229, 235
(Tenn. Crim. App. 1999); Lackey v. State, 578 S.W.2d 101, 107 (Tenn.
Crim. App. 1978); Tenn. Code of Prof’l Responsibility DR 7–106(c)(4).
3. The prosecutor should not use arguments calculated to inflame the
passions or prejudices of the jury. See Cauthern, 967 S.W.2d at 737; State
v. Stephenson, 878 S.W.2d 530, 541 (Tenn. 1994).
4. The prosecutor should refrain from argument which would divert the jury
from its duty to decide the case on the evidence, by injecting issues broader
than the guilt or innocence of the accused under the controlling law, or by
making predictions of the consequences of the jury’s verdict. See
-23-

Pet. App'x p. 24

Cauthern, 967 S.W.2d at 737; State v. Keen, 926 S.W.2d 727, 736 (Tenn.
1994).
5. It is unprofessional conduct for a prosecutor to intentionally refer to or
argue facts outside the record unless the facts are matters of common public
knowledge.
Standards Relating To The Prosecution Function And The Defense
Function §§ 5.8–5.9 Commentary (ABA Project on Standards for Criminal
Justice, Approved Draft 1971).
Goltz, 111 S.W.3d at 6.
If improper argument occurs, a new trial is required only if the argument affected
the outcome of the trial to a defendant’s prejudice. Bane, 57 S.W.3d at 425. In
determining whether prosecutorial misconduct affected the jury verdict to prejudice a
defendant, this court has stated a court should consider the conduct in light and in context
of the facts and circumstances of the case, any curative measures taken by the trial court
and the prosecutor, the prosecutor’s intent in making the comment, the cumulative effect
of the improper comment and any additional errors, the strength or weakness of the case,
whether the prosecutor’s comments were lengthy and repeated or isolated, and whether
the comments were in response to defense counsel’s closing argument. Judge v. State,
539 S.W.2d 340, 344 (Tenn. Crim. App. 1976); see Goltz, 111 S.W.3d at 5-6.
The Defendants point to the following during the State’s rebuttal argument:
Derrick Moore again at [its] most basic level in this case, Derrick
Moore admitted to felony murder. Derrick Moore admitted that he was
going to get his money back. Derrick Moore admitted that he had a deadly
weapon. He didn’t have the claw hammer, that’s what he says he had, but
even if you believed Derrick Moore’s version of events, Derrick Moore
admits to the crime of felony murder. He was going to attempt a robbery
and he had . . . a deadly weapon, and during that somebody was killed. So
he admits to felony murder.
We conclude that the Defendants have failed to prove that a clear and unequivocal
rule of law was breached. See Adkisson, 899 S.W.2d at 640-41. The prosecutor’s
argument focused on Defendant Derrick Moore’s admission to the detectives that, while
armed with a deadly weapon, he intended to take money from the victim and that the
victim had stolen from him previously. Regardless of whether the jury credited
Defendant Derrick Moore’s admission that he was armed with a claw hammer or the
witness testimony that Defendant Derrick Moore was armed with a handgun, the
evidence showed that he possessed a deadly weapon to accomplish a robbery and that the
-24-

Pet. App'x p. 25

victim was fatally shot during the incident. The prosecutor’s argument reflects the
logical inferences to be drawn from the evidence that Defendant Derrick Moore’s
admissions were sufficient to satisfy the elements of first degree felony murder.
Additionally, during closing arguments, the parties discussed the Defendants’ criminal
responsibility for each other’s conduct, and the trial court provided an instruction for
criminal responsibility in the final jury charge. The Defendants are not entitled to relief
on this basis.
In consideration of the foregoing and the record as a whole, we affirm the
judgments of the trial court.

____________________________________
ROBERT H. MONTGOMERY, JR., JUDGE

-25-

Pet. App'x p. 26

2. Order of the Supreme
Court of Tennessee

Pet. App'x p. 27

Pet. App'x p. 28

3. Recorded Statement
of David Miller
(Excerpt)

Pet. App'x p. 29

Pet. App'x p. 30

Pet. App'x p. 31

Pet. App'x p. 32

4. Pre-Trial Testimony
of David Miller
(Excerpt)

Pet. App'x p. 33

3
1

DIRECT EXAMINATION BY MS. WILSON:

Q.

Will you please state your name for the

4

A.

David Miller.

5

Q.

And Mr. Miller, what is your date of

A.

January 14th, 1990.

Q.

And do you have a nickname that you go

10

A.

Yeah, Pun.

11

Q.

How do you spell that?

12

A.

P-U-N.

13

Q.

Is it some time C-pun?

14

A.

Yeah.

15

Q.

You obviously are in custody right now.

2
3

6

Court?

birth?

8
9

16

by?

Where are you in custody?

17

A.

In Gallatin.

18

Q.

Sumner County?

19

A.

Yes, ma'am.

20

Q.

What are you in custody for?

21

A.

They say I got a burglary charge or

22

some -- some shit -- I don't even remember having the

23

charge.

24

They gave me four years at 30 percent to serve.

25

They say it's an agg burglary or something.

Q•

And did you plead guilty to that?

Pet. App'x p. 34

4
A.

1
2

Yeah, I copped out to it on the 11th

March 11th, about three weeks ago.

3

Q.

So this year, 2016?

4

A.

Yes, ma'am.

5

Q.

You said that they said you did this,

6

are you referring to you don't remember some stuff?
A.

7

Yeah.

I mean, yeah, they said I got a

8

burglary -- I don't even remember the burglary.

9

just -- I don't know they said that I went to court
They bound it over to big court, I don't even

10

on it.

11

remember -- they said I bonded out on it and I don't

12

even remember none of this shit, I mean none of it.
Q.

13
14

And if you could tell us why it is that

you don't remember these things?
A.

15

Well, I mean, I had an accident in

16

Gallatin where some dude jumped on me and I was hit

17

with a lamp and I had -- they life flighted me from

18

Sumner to Vanderbilt and I just had a bunch of

19

surgery in my brain.

I lost a lot of memory.

So I mean, I have been messed up for the

20

I don't even remember a lot of

21

last two years.

22

stuff.

23

helping, you know what I'm saying.

24
25

And then I've been doing drugs and that ain't

Q.

Do you know what your diagnosis was?

Did you have a brain injury?

Pet. App'x p. 35

5
1

A.

No, ma'am, but it's on all on the record

2

at Vanderbilt through.

3

stuff like far back, no, but it's all on file though.

4
5

Q.

I don't remember none of this

Do you remember the date that that

happened?

6

A.

No, ma'am.

7

Q.

Do you remember what year it happened?

8

A.

I think 2014, it couldn't have been last

9
10
11
12
13
14

year, I worked all last year.

Q.

So at some point you had an injury that

you don't feel -A.

It was 2014, I don't remember the date

exactly through.
Q.

Okay.

If we are asking about something

15

that happened in 2013 involving DeMichael Moore and

16

Derrick Moore, does that bring out any memories?

17

A.

No, that's what I told the DA.

18

remember -- I don't recall none of that.

19

that happened in 2013.

20

none of that.

21
22
23

Q.

I don't

Nothing

I definitely don't remember

I represent DeMichael Moore.

Do you

know who DeMichael Moore is?
A.

24

nickname.

25

nickname.

Yeah.

Y'all told me that.

I remember by nickname.

Y'all said a

You all told me

Pet. App'x p. 36

6
1

Q.

What is that?

2

A.

I don't remember which one of the

3

nicknames that you said when you said DeMichael.

4

know you said Fat-D and Face or something.

5

them by that, I don't know them by no real name.

I

I know

6

Q.

But you know DeMichael Moore as Face?

7

A.

If that is the one that you said, yeah.

8

I know one of them like that.

9
THE COURT:

10
11

two people over here.

Do you know them?

THE WITNESS:

12
13

Yeah, I know them.

14

with them, yeah.
THE COURT:

16

THE WITNESS:

17

THE COURT:

18

THE WITNESS:

I do seen them.

Okay.

Who are they?

Who you just said.
Who?
I mean, that's what you

said Fat-D and Face.
THE COURT:

20
21

Yeah.

I grew up in the neighborhood

15

19

She's asking about these

Okay.

Who would Fat-D

be --

22

THE WITNESS:

23

MS. WILSON:

The one on the right.
For the record, Your

24

Honor, I believe he identified Derrick Moore as Fat-D

25

and then my client would be the one on the left as

Pet. App'x p. 37

7
1

Face.

2
BY MS. WILSON:

Q.

4

If we -- if the State has records today,

5

Mr. Miller, that are from back in September of 2013

6

and you're giving an interview with the police, do

7

you have any recollection of that?

8

A.

No, I don't recall none of that.

9

Q.

And if the days before that on the 27th

10

and the 28th if you had also given interviews with

11

the police, you don't remember either of those

12

either?

13

A.

No, ma'am.

14

Q.

To your knowledge pre the accident, what

15

you remember from before the accident, you said you

16

do remember my client as Face, correct?

17

A.

Yeah.

I've been knowing them -- they

18

been knowing me since I was a baby like, you know

19

what I'm saying.

20
21
22

Q.

Did you -- did my client DeMichael Moore

AKA Face, have a relationship with your brother Rico?
A.

They all went to school together.

23

all grew up in the same neighborhood.

24

to school together.

25

long time.

They

They all went

My brother was locked up for a

He was locked up for a long time.

He

Pet. App'x p. 38

8
1

went to jail I think when I was like nine or

2

something.

3

Q.

4

between --

5

A.

No, they ain't never had to issues.

6

Q.

Were they friends?

7

A.

Yeah.

8
9
10
11
12

So to your knowledge was there an issue

To my knowledge all of them was

cool, they all grew up together.
Q.

So was your mother good friends with

their mother?
A.

I believe so, yes, I ain't -- to my

knowledge it was.

13

Q.

As far as, you know, there was never --

14

A.

I ain't never heard them say nothing

15

wrong with my family and they family, what -- you

16

know I'm saying?

17

Q.

That ain't the issue.

So if you made statements back in 2013

18

that there was some sort of beef between

19

Mr. DeMichael Moore or Face and your brother Rico, do

20

you think you could have been under the influence of

21

drugs at that point?

22

A.

If they said I said it, that could be
But I don't even recall ever

23

the only other reason.

24

saying nothing like that.

25

Q.

Do you remember back around this time

Pet. App'x p. 39

9
1

2013 what kind of drugs you were using?
A.

3

Everything.

Not -- I mean, I don't know

just -- I was smoking dope and shit.

Q

When you say dope, do you mean crack

6

A.

Yeah.

7

Q.

Like rock cocaine?

8

A.

Yeah.

9

secretive.

4
5

cocaine?

I was trying to be real

I was just going through a depression

10

man, I lost all of my loved ones.

11

nobody's help.

12

anything for nobody.

13

only one that's going to go in my casket.

16
17
18
19
20
21

So I ain't here to protect or do
When I'm dead and gone, I'm the

Like I said, I didn't remember any of

14
15

I ain't got

that -- any that -Q.

I was just asking you if you remember in

2013 what drugs you used?
A.

Yeah, I did powder hard.

I was

sneaking, you know what I'm saying.
Q.

Do you think you were using anything

besides crack and powder cocaine?

22

A.

Not in 2013.

23

Q.

Would you have been smoking weed?

24

A.

Yeah, I smoke that weed.

25

Q.

Taking any pills?

Pet. App'x p. 40

10
1

A.

I probably -- tabs, and --

2

Q.

Okay.

A.

Not in 2013.

3

drugs?

4
5

Q.

I take that to mean that at some point

you did start using heroine?
A.

8
9

I didn't know nothing

about heroine in 2013.

6
7

Any heroine, any other harder

Yeah, I did.

Here recently before I

come to jail, I had been for a little minute now.
Q.

10

So if you made statements that are

11

inconsistent with what you remember before your

12

accident back in 2013, the only thing that you can

13

think of that would have caused that would have been

14

your drug use?

15

A.

I'm pretty sure there was, yes, ma'am.

16

Q.

And if on the recording you are asking

17

for money, would that have been money you were asking

18

for to get more drugs?

19

A.

20

been high.

21

be high.

If I'm asking for money, I had to have
If I was asking for money, then I had to

I ain't fixing to just ask for no money.

22
23

MS. WILSON:

24

all I have, Your Honor.

25

THE COURT:

Okay.

Thank you.

All right:

That's

any questions

Pet. App'x p. 41

11
1

from the State?

2
3

CROSS-EXAMINATION BY GENERAL BUFORD:

4
5

Q.

You mentioned your injury, and you said

this occurred in 2014, correct?

6

A.

Yes, sir.

7

Q.

And they had to life flight you to

8

Vanderbilt?

9

A.

Yes, sir.

10

Q.

Your recollection of what happened, is

11

it clear, or is it clouded?

12

A.

You talking about as far as what?

13

Q.

What happened to cause your injury?

14

A.

Y'all know, I got into a scuffle or

15

something.

16

but I know what happened to me.

17

saying, I got hit with a lamp in the eye and a brick

18

and then his -- supposedly his friend helped him and

19

stuff.

20

out.

21

they took me to Summit, and /* and they got in a

22

helicopter and took me to Vanderbilt, they told --

23

they pronounced me dead on the news.

24

they called and said I was dead.

25

work -- he almost had a heart attack, he come up to

I don't remember how the scuffle went,
You know what I'm

So we were all drinks and stuff, so I blacked
I don't even remember.

I know they just said

My daddy said

He said he left

Pet. App'x p. 42

12
1

the hospital, he said he /SKWUZ my ankle and I woke

2

up.

3

I can remember seeing him when she

4

/SKWUZ my ankle, that is the only thing I remember

5

about that.

6
7

Q.

Okay.

And how long -- the lasting

affects of that attack are --

8

A.

What do you mean last --

9

Q.

Do you still have any affects today from

10
11

what happened to you when they attacked you?
A.

Yeah I still done even -- sometimes I

12

still don't even remember my little girl's birthday

13

and stuff.

I ask my girlfriend's her birthday

14

yesterday.

There is a whole bunch of stuff wrong

15

with me, all kinds of stuff.
I had a court date in Nashville a month

16
17

ago, F. T. A. where I didn't go to it.

18

remember I had a court date.

19
20

Q.

Okay.

I didn't even

So you have trouble recalling

dates, names, please kind of things?

21

A.

Yes, sir.

22

Q.

You have a -- like a lasting mark; is

23

that correct that you were showing earlier from this

24

incident?

25

A.

Is that correct?
I don't get what you're saying.

Pet. App'x p. 43

13

2
3

THE COURT:

You have a scar or anything

that --

4

THE WITNESS:

Yeah.

Yeah.

Right here.

5
6

BY GENERAL BUFORD:

7

Q.

Okay.

A.

It's from the surgery when they don't

8

that --

9
10

the incident.

11
12

And that came from this incident

Q.

Okay do you recall what kind of surgery

A.

They had to put my eye back.

it was?

13

They had

14

to fix my eye, they didn't think I would be able to

15

see or nothing.

16

Q.

Okay.

Now, as far as having been a

17

witness to a shooting, do you recall being a witness

18

to a shooting?

19
20

A.

I ain't never been no witness to no

shooting.

21

Q.

22

of Spencer Beasley?

Okay.

Do you recall anybody by the name

23

A.

No.

24

Q.

Do you know anybody by the nickname

25

Third?

Pet. App'x p. 44

14
1

A.

No, that is what you asked me about in

2

there.

3

talking about a date or something.

4

nobody by the name of Third.

5
6

The detective in there.

Q.

Okay.

I thought he was
I don't know

Do you recall a dice game where

things went bad?

7

A.

Nothing that I can recall, no, sir.

8

Q.

Okay.

9

All right.

And some detective

with the Metro police -- do you recall possibly

10

speaking to a detective by the name of Detective

11

Weeks?

12

A.

No, sir.

13

Q.

How about Detective Haifly?

14

A.

I don't remember no detective name.

15
16

I

don't remember speaking to no detective.

Q.

Okay.

Do you understand the police

17

attempting to speak with you about an incident that

18

occurred?

19

A.

No, sir.

20

Q.

Where a person was shot multiple times?

21

A.

No, sir.

22

Q.

You had a brother named Rico, correct?

23

A.

Yes, sir.

24

Q.

And how did Rico pass away?

25

A.

Obituary said car wreck or something on

Pet. App'x p. 45

15
1

Riverside Drive.

2

don't want to -- to talk about my brother.

3

brother, you let him rest in peace please.

4

Q.

But my -- I don't wish we -- I
My

And I'm only bringing that up because it

5

was brought up in a different motion, I'm not trying

6

to -A.

Yes, sir.

Q.

-- disturb his memory in any kind of

10

A.

Right.

11

Q.

Do you have any kind of animosity

8
9

12
13

way.

towards either Derrick Moore or DeMichael Moore?
A.

No.

I ain't never had no animosity with

14

them, never.

15

right now, that's where my animosity -- four years at

16

30 percent, that's what I'm doing.

I have animosity with Sumner County

17

Q.

Okay.

18

A.

No, I ain't got no problem with nobody.

So you're not angry?

19

I'm mad at myself because I'm doing drugs, something

20

my mama -- wasn't raised like that, I'm doing a lot

21

of stuff I wasn't raised like that.

22

Q.

Okay.

So it's your testimony that the

23

attack mixed together with drug lifestyle, have

24

caused you not to recall anything about a shooting in

25

September of 2013?

Pet. App'x p. 46

16
1

A.

Yes, sir.

2
3

THE COURT:

Do you have any questions,

5

MR. SCOTT:

No, sir.

6

THE COURT:

So as you sit here today,

4

Mr. Scott?

7

Mr. Miller, you don't know anything about any

8

confrontation or bad blood between your brother and

9

DeMichael Moore, Face?

10
11

THE WITNESS:

THE COURT:

13

MS. WILSON:

15
16

No, sir.

Nothing I can recall, no, sir.

12

14

No, sir.

Any other questions?
I don't have any further

questions of this witness.
THE COURT:

All right.

You can step

back with the court officer.

17

All right.

18

MS. WILSON:

Any other proof, Ms. Wilson?
Your Honor, I spoke with

19

the General earlier about -- the only other issue we

20

may have as to the motion to sever that I did not

21

include in the motion, but just after speaking to

22

him, we may have some issues:

23

the defendant Derrick Moore and the detective.

24

is here today.

25

interview that I feel like the Court might appreciate

Is an interview with
Weeks

It's a pretty lengthy three-hour

Pet. App'x p. 47

17
1

me narrowing down statements that I think may either

2

need to be redacted or may cause me to need be able

3

to file an amended motion to -- I'm sorry to --

4

THE COURT:
MS. WILSON:

Sever?
Yes.

I'm sorry.

So I

6

don't know if Your Honor wants to hear from him today

7

or if you want to give us a -THE COURT:

9

Well, I mean, I can.

Is the

State seeking at a trial to introduce statements by

10

Derrick Moore that would somehow implicate DeMichael

11

Moore?

12

GENERAL BUFORD:

There are statements by

13

Derrick Moore, but his statements don't necessarily

14

implicate DeMichael.

15

to offer an alibi to --

16

THE COURT:

17

MS. WILSON:

As a matter of fact, he intents

I don't know about -Well, the issue I -- the

18

one issue that I know that I think we agree on that

19

would need to be redacted are statements by the

20

detective speaking directly about my client's prior

21

history, which I think we can agree those need to be

22

redacted.

23

THE COURT:

Okay.

Are you of the

24

opinion that there are statements made by Derrick

25

Moore implicating DeMichael Moore?

Pet. App'x p. 48

18
1

MS. WILSON:

2

some that could be.

3

way.

I believe there might be

I guess could be construed that

4

MR. SCOTT:

Judge --

5

THE COURT:

Uh-huh.

6

MR. SCOTT:

The State has the number of

phone calls that were recorded from the jail -8
9
10

THE COURT:

I'm not there yet.

I'm

dealing with a statement that Ms. Wilson is bringing
up dealing with Derrick Moore to law enforcement.

11

MR. SCOTT:

12

GENERAL BUFORD:

Okay.

All right.

I will submit to the

13

Court it's probably better idea for maybe us to have

14

an opportunity for Ms. Wilson to tell me what the

15

statements are that she thinks specifically need to

16

be removed.

17

should bring them to the Court.

18

And if we can't agree to them, then we

THE COURT:

Okay.

I don't know that I

19

need the detective to tell me what is on the audio

20

recording when it could either be transcribed or you

21

can tell me what's on there, or I can listen to

22

portions if the sides done agree to it being

23

redacted.

24
25

MS. WILSON:

That's what I think would

make the most sense, Your Honor, if you would give me

Pet. App'x p. 49

19
1

an opportunity to pull those specifics.

2

think may be need to be redacted if the State and I

3

don't agree, we could --

4

THE COURT:

5

MS. WILSON:

And what I

Okay.
Just, you know, whenever

6

we are back for the other hearings, we could address

7

the Court.

8
9

THE COURT:

Okay.

In terms of this

particular motion dealing with other bad acts or

10

information Mr. Miller -- this witness that's been

11

proffered here, is that still an issue?

12

MS. WILSON:

I don't believe it's an

13

issue, Your Honor I just wanted for the record to

14

show that we tried to get him here to see if there

15

was a basis for our motion for sever.

16

as if that's going to be his testimony at trial,

17

that's going to be no issue.

18

THE COURT:

And it looks

Are there -- are there

19

statements that the State would be attempting to

20

admit that have been made pretrial by David Miller

21

under the 803-26 hearsay exception?

22

MS. WILSON:

23

THE COURT:

Yes, sir.
That somehow reference Rico

24

Miller going to get DeMichael Moore because he,

25

DeMichael Moore, had killed one of his best friends?

Pet. App'x p. 50

20
1

GENERAL BUFORD:

Your Honor that

2

particular portion of the statement, I think that is

3

what they find objectionable and I -- if there was a

4

motion to redact that, I don't know that we would

5

completely redact that, I don't think that we would

6

be completely opposed to that.

7

THE COURT:

I'm still trying to

figure -- and I guess either you, General Buford or
9

Ms. Wilson, could answer what's in this motion, the

10

animosity that Mr. Miller doesn't recall or doesn't

11

know anything about between Rico Miller and DeMichael

12

Moore because Mr. Moore had killed who.

13

MS. WILSON:

Well, I -- I don't know

14

the specifics of that, that's just the allegation in

15

the --

16

MR. SCOTT:

Judge, the statement is,

17

Mr. Miller says that his brother Rico told him that

18

when he got out of prison he was going to kill

19

DeMichael Moore because DeMichael Moore had set up a

20

friend of his, a friend of Rico's to be killed.

21

GENERAL BUFORD:

And I think the

22

specific statement is:

23

that he necessarily said kill, but --

Going to get.

24

THE COURT:

25

GENERAL BUFORD:

I don't know

Okay.
But we have the

Pet. App'x p. 51

21
1

statement and I don't know at the Court's --

2
3

THE COURT:

How is that relevant to anything even if it comes in?

4
5

Well, my first thought is:

GENERAL BUFORD:

Your Honor, like I

said before --

6

THE COURT:

Even if it fit the 803-26

7

standard, I'm still not understanding what it's

8

relevant to.

9

GENERAL BUFORD:

That particular

10

portion of the statement, I can understand the

11

Court's questioning and we understand that that could

12

possibly be an issue under the 403 where it's more

13

prejudicial than it is probative.

14

THE COURT:

Is it something, Mr. Scott,

15

that statement your thinking should come in under

16

803-26?

17
18

MR. SCOTT:

inadmissible under Crawford.

19
20

Well, I think it's

THE COURT:

Okay.

So you are not

wanting it in either?

21

MR. SCOTT:

I don't think it's

22

admissible under the supreme court's ruling under

23

Crawford.

24
25

THE COURT:

Okay.

So if nobody is

wanting it in and the State is thinking it may need

Pet. App'x p. 52

22
1

to be redacted, is it still an issue?

2

MR. SCOTT:

It's not an issue with me.

3

But the rest of his statement, if the State is going

4

to try to introduce any more of his recorded

5

statement to -- I think the statement was made to

6

Weeks and Harris in an automobile a couple of days

7

after the shooting and he names DeMichael and he

8

names Derrick.

9

Derrick pulled out a gun, that DeMichael took it away

10

from him and shot the victim.

11
12

THE COURT:

And that recording was taken

under what circumstances?

13
14

He says that there was a fight, that

MR. SCOTT:

It was just in a -- it was

in a patrol car.

15

THE COURT:

Okay.

16

MR. SCOTT:

It wasn't subject to cross

17

examination.

18

going to be denied the right of cross-examination if

19

they play that.

20

And I was going to -- and Mr. Moore is

THE COURT:

Okay.

But it is not a

21

severance issue.

22

terms of -- or the defense argument about whether it

23

fits 803-26 in terms of trustworthiness, would that

24

be accurate?

25

Then we get to the prejudice in

MR. SCOTT:

Yes.

It may fit that, but

Pet. App'x p. 53

23
1

still my position is it violates Crawford.

2

THE COURT:

3

MR. SCOTT:

4

wasn't subject to cross-examination.

5
6

MS. WILSON:

The testimony or statement

It also wasn't under oath,

Your Honor under 26.

7
8

Well, I mean it --

THE COURT:

Well, it doesn't have to be

under oath, it could be audio or video recorded.

9

Okay.

So in terms of this motion here

10

today to sever, anyone care to be heard further on

11

it?

12

GENERAL BUFORD:

13

MS. WILSON:

14

MR. SCOTT:

Nothing for me, Your Honor.

15

THE COURT:

All right.

No, sir.

No, sir.

Then I will

16

deny this motion.

17

else, there is need to revisit some other reason, ie,

18

statements given by -- that the State would be

19

contemplating using by a co-defendant, then that

20

could be an issue depending on what is contained in

21

the statement.

22

Court know.

And if there -- Ms. Wilson, anyone

Just refile something or let the

23

MS. WILSON:

24

THE COURT:

25

Thank you, Judge.
Now, when do we want to set

based on Detective High or -- when do we want to set

Pet. App'x p. 54

5. Oral Ruling of Trial
Court Judge Steve
Dozier

Pet. App'x p. 55

252
reserve the right to call Mr. Miller again if -THE COURT:
3

I think he's being brought

back in, but I can address that.

4

MS. WILSON:

5

THE COURT:

Okay.
All right.

The 803-26

6

hearsay exception, which is the newest one, the only

7

one that I'm aware of since 1990 that's been amended

8

to our hearsay exception rules was adopted, amended,

9

submitted by the DA's conference in terms of issues

10
11

like this.
I mean, that was the purpose,

12

domestic-violence-type situations, gang-type

13

situations, and I'm not saying that's this case, but

14

where witnesses become, for whatever reason,

15

reluctant to testify against husband, boyfriend, gang

16

member, friend, neighborhood acquaintance and a

17

situation like we have here.

18

So it was audio recorded.

Mr. Miller

19

has testified.

20

803-26-C, has the State shown by a preponderance of

21

the evidence that the prior statement was made under

22

circumstances indicating trustworthiness, and that's

23

what you have been arguing about.

24

not totally completely analogous, but somewhat like

25

the Davis case where there used to be -- there was an

So the issue is under 26-C --

It is somewhat,

Pet. App'x p. 56

253
old Akerman case where 803-26 was discussed by the
Court of Criminal Appeals.
But the Davis case that the State has
referenced here does once and for all address does a
no recollection, lack of memory testimony from a
declarant allow for or to be considered inconsistent
under 613-B, because that's the only inconsistent
statement to come in.

And the Supreme Court said

without reservation that -- and I'm reading here, "a
witness's prior statement is for the purpose of this
rule" -- talking about 803-26 -- "inconsistent, this
comports with common sense.

A prior statement

relating particular facts is certainly not consistent
with a subsequent lack of recollection."
So it is inconsistent, it was recorded.
Mr. Miller has testified.

So in terms of the

trustworthiness, I mean, yes, it's not within minutes
of the shooting but to me one day latter, it's not
like one month later or six months later, but one day
after this particular shooting, Mr. Miller is
willing, after no one's around to see him get into
the car, provide information to detectives.
He is, during statement, and I have
listened to it, I think it's 11 minutes long, if my
notes are right, but in that statement, he talks

Pet. App'x p. 57

254
1

about being concerned, hay, if I give up that

2

information, I'm concerned about my name being

3

revealed, well, why would that make it more

4

trustworthy?

5

potentially going to get some people in trouble.

6

it's a falsehood, the people might be mad, but it

7

isn't going to -- you know, the police are going to

8

fare it out, you know, this is completely 100 percent

9

false and it then lack trustworthiness.

Well, because if it's the truth, that's
If

But there is

10

other factors on what is said and the other proof in

11

this trial.

12

I mean he, Mr. Miller, is adamant one

13

day later right at 24-hours later, he is addiment in

14

that statement and says quote, this is who done it.

15

He mentions which -- and these are things that are

16

confirmed by Mr. Wiley here in sworn testimony, he

17

mentions about a gun being taken from a brother.

18

mentions that gun being taken from Derrick Moore.

19

mentions that there were riffs over that.

20

mentions in the statement about being dropped off by

21

Mr. Wiley, and that is confirmed by Mr. Wiley.

22

just -- you know within 24-hours says that the victim

23

was shot 12 times.

24

of casings.

25

shot a few times or four times, five times, he says

He
He

He

He

Huh, well, that's the same number

He -- you know, it's not like he was

Pet. App'x p. 58

255
1

12.

2

proof of that or indication of that.

Now, could that be street stories?

3

There is no

In terms of the payment, he does ask

4

about when he said I know exactly what happened.

5

my name gets out I will get killed, can you pay me

6

right now?

7

I tell you, I might end up dead.

8

referred him to the Crime Stopper's program.

9

have not heard anything at all about anybody being

10

If

Meaning I need to go on and get paid.

If

But the officers
So I

paid.

11

According to the detective, there is no

12

indication he's under the influence at the time of

13

this interview.

14

he's articulate, coherent, kind of jokes about -- I

15

don't know what was happening when he -- apparently

16

there was some dogs out or something, but talks about

17

looks like Michael Vic just got out of jail.

18

takes them to one of the Moores' houses.

19

dropped off by Maurice Wiley; shot 12 times.

20

where Derrick Moore works.

21

gun.

22

Face took the pistol and shot him.

23

As I've stated, I've listened to it,

But

Says he was
Tells

That it was his brother's

That DeMichael Moore ran up, got the pistol and

So -- I say all of that to say, I mean,

24

there is corroborative proof from Mr. Wiley and shell

25

casings and other things to show that this is

Pet. App'x p. 59

256
1

trustworthy.

2

Mr. Miller, now lacks sufficient memory to recall

3

this.

4

question.

5

pointed out that the State in that case asked for the

6

exhibit to be actually made an exhibit rather than

7

just played and they indicate in that footnote 5 that

8

that was error but harmless, but -- because they also

9

discuss 803-5 and exhibits under 803-5, they are not

10

actually made exhibits under the opposing party does

11

it.

It is inconsistent because he,

So Davis -- the Davis court has answered that

12

So I think under this Davis case it is

So I think the correct thing to do is

13

allow the State, me having made these findings that

14

the State has shown under the 803-26 hearsay rule

15

that that is a prior inconsistent audio statement

16

given by Mr. Miller who has testified it is

17

trustworthy allow them to play it and not marked as

18

an exhibit so the jury doesn't have it, weighing it ,

19

you know, having it in the jury room and possibly

20

listening to it again that other proof they wouldn't

21

be able to do that.

22

So let's take ten minutes and then --

23

and then also after that you are wanting to get in

24

with this officer about Mr. Derrick Moore's

25

statement?

Pet. App'x p. 60

